TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Applications Development Function’s
                    Quality Assurance Program Office Can
                      Make Its Processes More Effective



                                        February 17, 2011

                              Reference Number: 2011-20-007




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               HIGHLIGHTS


THE APPLICATIONS DEVELOPMENT                       the Applications Development function’s
FUNCTION’S QUALITY ASSURANCE                       products and services. It employs qualified
PROGRAM OFFICE CAN MAKE ITS                        specialists to perform its audits and provides the
PROCESSES MORE EFFECTIVE                           Applications Development function feedback
                                                   about its organizational practices.
                                                   Currently, the Applications Development
Highlights                                         function is the only activity in the MITS
                                                   organization with a Quality Assurance Program
Final Report issued on February 17, 2011           Office. Transitioning to a MITS-wide Quality
                                                   Assurance Program Office will help the MITS
Highlights of Reference Number: 2011-20-007        organization achieve its goal of reaching
to the Internal Revenue Service Chief              CMMI-Development maturity level 3.
Technology Officer.
                                                   The products and documents created generally
IMPACT ON TAXPAYERS                                met the Quality Assurance Program Office
                                                   guidelines. However, the guidelines do not
The mission of the Applications Development        require approval signatures and dates on the
function’s Quality Assurance Program Office is     products by the appropriate Applications
to assure product compliance, drive process        Development function managers. Also, the
improvement, and promote quality awareness.        Quality Assurance Program Office did not
Ensuring the quality of development activities     effectively maintain all necessary documentary
helps the Modernization and Information            evidence to assess and support the reported
Technology Services (MITS) organization deliver    audit results.
services and solutions that drive effective tax
administration to ensure public confidence.        WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                            TIGTA recommended that the Chief Technology
                                                   Officer: 1) expand the scope of the Quality
This audit was initiated at the request of the     Assurance Program Office to provide coverage
MITS organization. The overall objective was to    across the MITS organization; 2) implement
determine whether the Applications                 procedures to officially approve its products and
Development function’s Quality Assurance           guidance documents; 3) improve the guidance
Program Office ensures development projects        to include requirements that assure an
implement a coordinated set of activities that     informative, accurate, and appropriate
conform to organizational policies, processes,     perspective in reporting; and 4) further develop
and procedures that meet the standards of the      the peer review guidance to help ensure audit
Software Engineering Institute’s Capability        reports are supported by sufficient, competent,
Maturity Model Integration (CMMI) -                and relevant evidence.
Development maturity level 2.
                                                   In its response to the report, the IRS agreed with
WHAT TIGTA FOUND                                   TIGTA’s recommendations. The IRS plans to:
The Quality Assurance Program Office generally     1) evaluate expanding the scope of the Quality
meets the CMMI-Development maturity level 2        Assurance Program Office; 2) modify its
requirements. The Applications Development         reporting procedures and templates to include
function updated the role of the Quality           approvals; 3) strengthen the language relative to
Assurance Program Office in April 2007. The        the reporting of the audit findings and ensure,
update resulted in a directive that established    when possible, that the audit’s results are input
authority and responsibility for the performance   into the database; and 4) strengthen the
of quality assurance activities across the         language relative to the peer review process and
Applications Development function.                 analyze the checklist to ensure it includes all
                                                   appropriate issues for review.
The Quality Assurance Program Office
implemented a comprehensive plan to assess
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 17, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Applications Development Function’s
                             Quality Assurance Program Office Can Make Its Processes More
                             Effective (Audit # 201020026)

 This report presents the results of our review of the Applications Development function’s
 Quality Assurance Program Office activities. The overall objective of this review was to
 determine whether the Applications Development function’s Quality Assurance Program Office
 ensures development projects implement a coordinated set of activities that conform to
 organizational policies, processes, and procedures that meet the standards of the Software
 Engineering Institute’s Capability Maturity Model Integration - Development maturity level 2.
 This review was requested by the Modernization and Information Technology Services
 organization and addresses the major management challenge of Modernization of the Internal
 Revenue Service. Management’s complete response to the draft report is included as
 Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or Alan
 Duncan, Assistant Inspector General for Audit (Security and Information Technology Services),
 at (202) 622-5894.
                         The Applications Development Function’s Quality Assurance
                           Program Office Can Make Its Processes More Effective




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Quality Assurance Program Office Generally Meets
          the Maturity Level 2 Requirements .............................................................. Page 3
                    Recommendation 1:........................................................ Page 6

          The Quality Assurance Program Office Should Ensure
          All Products Include an Approval Signature ................................................ Page 6
                    Recommendation 2:........................................................ Page 7

          The Quality Assurance Program Office Audit
          Documentation and Procedures Need Improvement .................................... Page 7
                    Recommendation 3:........................................................ Page 10

                    Recommendation 4:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Quality Assurance Program Office Audits Reviewed ......... Page 17
          Appendix V – Glossary of Terms ................................................................. Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 24
        The Applications Development Function’s Quality Assurance
          Program Office Can Make Its Processes More Effective




                      Abbreviations

CMMI            Capability Maturity Model Integration
IRS             Internal Revenue Service
MITS            Modernization and Information Technology Services
TIGTA           Treasury Inspector General for Tax Administration
                       The Applications Development Function’s Quality Assurance
                         Program Office Can Make Its Processes More Effective




                                              Background

The Applications Development function in the Modernization and Information Technology
Services (MITS) organization collaborates with the other Internal Revenue Service (IRS)
business functions to provide integrated computer software solutions that align with the business
priorities of the IRS. Specific focus areas for the Applications Development function include
developing modernized applications, delivering applications to support the processing of income
tax returns, and maintaining existing technology systems. The Quality Assurance Program
Office assists the Applications Development function meet its mission by assuring product
compliance, driving process improvement, and promoting quality awareness. To fulfill this role,
the Quality Assurance Program Office provides the MITS organization’s senior management
with assessments of the products being built and the services being provided. These assessments
communicate whether development activities conform to applicable contractual, program, and
project requirements and whether the development activities use repeatable, standardized, and
effective processes.
The objectives of the Quality Assurance Program Office are to:
      •    Assess the Applications Development function’s portfolio each year to objectively
           evaluate performance against applicable standards and requirements.
      •    Institutionalize the Enterprise Life Cycle1 and promote standardization of organizational
           processes and procedures.
      •    Enable project quality principles and practices through mentoring, coaching, and training.
      •    Produce performance measures that identify progress, variances, trends, and opportunities
           for improvement.
      •    Ensure continuous process improvement using industry standards to provide
           cost-effective, high-quality products and solutions.
The Quality Assurance Program Office is part of the Applications Development function’s effort
in leading a MITS organization-wide initiative to use the Software Engineering Institute’s
Capability Maturity Model Integration (CMMI). The CMMI consists of best practices that
address development and maintenance activities covering the product development life cycle
from conception through delivery and maintenance. Specifically, the MITS organization is
planning to use the CMMI-Development model to help improve its development and
maintenance processes for both products and services.


1
    See Appendix V for a glossary of terms.
                                                                                               Page 1
                  The Applications Development Function’s Quality Assurance
                    Program Office Can Make Its Processes More Effective



All CMMI models reflect maturity levels in their design and content. A maturity level consists
of related specific and generic practices for a predefined set of process areas that improve the
organization’s overall performance. The MITS organization has set a target for achieving
maturity level 2 using the CMMI-Development model by January 2011 and level 3 by
June 2012.
   •   At maturity level 2, the projects of the organization have ensured that processes are
       planned and executed in accordance with policy; projects employ skilled people who
       have adequate resources to produce controlled outputs; projects involve relevant
       stakeholders; projects are monitored, controlled, and reviewed; and projects are evaluated
       for adherence to their process descriptions.
   •   At maturity level 3, processes are well characterized and understood, and are described in
       standards, procedures, tools, and methods. The organization’s set of standard processes,
       which is the basis for maturity level 3, is established and improved over time. These
       standard processes are used to establish consistency across the organization.
The CMMI defines quality assurance as a planned and
systematic means for assuring management that the
defined standards, practices, procedures, and methods of         Process and product quality
the process are applied. Process and product quality         assurance provides the project staff
                                                                and all levels of managers with
assurance is an aspect of the CMMI that provides                appropriate visibility into, and
specific practices for objectively evaluating performed        feedback on, the processes and
processes, work products, and services against the                associated work products
applicable process descriptions, standards, and               throughout the life of the project.
procedures, and ensuring that any issues arising from
these reviews are addressed.
This review was performed at the MITS organization facilities in New Carrollton, Maryland,
during the period June through September 2010. This audit was performed at the request of the
MITS organization. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                           Page 2
                  The Applications Development Function’s Quality Assurance
                    Program Office Can Make Its Processes More Effective




                                Results of Review

The Quality Assurance Program Office Generally Meets the Maturity
Level 2 Requirements
We analyzed the Internal Revenue Manual and found that it included the CMMI-Development
maturity level 2 quality assurance requirements. Further, the Quality Assurance Program
Office’s processes, guidance, and procedures generally meet the CMMI maturity level 2
requirements for quality assurance.
The Applications Development function updated the role of the Quality Assurance Program
Office in April 2007. The update resulted in a directive that established authority and
responsibility for the performance of quality assurance activities across the Applications
Development function.

Guidance documents were developed for auditing project development activities
The Quality Assurance Program Office has made significant progress in developing guidance for
its audit activities. Since April 2007, it has developed and issued guidance documentation that
includes templates, checklists, processes, procedures, handbooks, and training modules. The
guidance developed covers all aspects of the quality assurance activities for use by the quality
specialists. The topics the guidance covers include auditing, status reporting, peer reviews,
metrics, and lessons learned. By developing this guidance, the Quality Assurance Program
Office has provided the quality specialists with tools to guide them in auditing the Applications
Development function’s project development activities.

A comprehensive plan was implemented to assess the products and services
To implement the directive, the Quality Assurance Program Office develops annual audit plans.
The annual audit plans describe the goals for coverage of the Applications Development
function’s five business domains. Table 1 presents these domains and the eight process areas
planned for review by the Quality Assurance Program Office during Fiscal Year 2010.




                                                                                          Page 3
                   The Applications Development Function’s Quality Assurance
                     Program Office Can Make Its Processes More Effective



    Table 1: Applications Development Function Domains and Process Areas

               Business Domain                                        Process Area
   Compliance                                         Project Planning
   Corporate Data                                     Project Monitoring and Control
   Customer Service                                   Configuration Management
   Internal Management                                Requirements Management
   Submission Processing                              Measurement and Analysis
                                                      Software Development
                                                      Supplier Agreement Management
                                                      Testing

Source: Internal Revenue Manual and the Applications Development function’s Quality Assurance Program
Office Fiscal Year 2010 Program Plan.

The Quality Assurance Program Office met the annual audit plan goal in Fiscal Year 2008 by
performing 65 audits and in Fiscal Year 2009 by performing 79 audits. These audits included
representative coverage of the Applications Development function’s business domains and
process areas.
The audit reports included issues facing the domains and projects in the Applications
Development function. These issues included project planning, project monitoring and control,
configuration management, risk management and contingency management plans, requirements
management, and security issues. With this information, the Applications Development function
can focus on improvements the Quality Assurance Program Office audit reports identified.

Qualified specialists were employed to perform the audits
The Quality Assurance Program Office uses quality specialists to conduct audits of the
Applications Development function’s portfolio to determine the level of compliance with the
organizational standards, processes, and procedures. The quality specialists have responsibilities
for implementing best practices that are compliant with the CMMI-Development in order to
achieve maturity levels 2 and 3.
The quality specialist’s qualifications are outlined in a set of requirements for the position’s
knowledge, skills, and abilities. These requirements include knowledge of program and project
management concepts; experience in developing and performing audits/monitoring software
engineering life cycle processes; experience in performing quality assurance activities; the ability
                                                                                                   Page 4
                  The Applications Development Function’s Quality Assurance
                    Program Office Can Make Its Processes More Effective



to communicate effectively, both verbally and in writing; and the ability to effectively interact in
groups. The quality specialists have also received CMMI-Development training to supplement
their knowledge, skills, and abilities.
The quality specialists make recommendations to help improve the organization’s project
management. These recommendations relate to project management activities such as
configuration management, requirements management, and project scheduling.

Feedback about organization practices is provided
An element of the CMMI-Development Process and Product Quality Assurance process involves
providing feedback to Applications Development function project staff and managers on the
results of quality assurance activities. The Quality Assurance Program Office implemented this
guidance with its Status Reporting Procedure. The Procedure directs the Office to collect,
analyze, interpret, and report on measures derived from audits conducted. These measures
provide insight on the organization’s ability to comply with Enterprise Life Cycle requirements.
They also help to identify skill gaps and organization processes that may need modifications for
proper implementation across the Applications Development function’s portfolio. Measurements
are reported quarterly and at yearend to Applications Development function’s Domain Directors
and the Program Management Office.

Expanding the Quality Assurance Program to cover all MITS organizations will
contribute to achieving a higher maturity level
The Applications Development function’s Quality Assurance Program Office structure is
adequate to its goals. The CMMI-Development provides the following guidance on the
expectations for a quality assurance organization at different maturity levels.
   •   To meet CMMI-Development maturity level 2 requirements, a Process and Product
       Quality Assurance support process must be established to objectively evaluate performed
       processes, work products, and services against the applicable process descriptions,
       standards, and procedures and ensure that any issues arising from these reviews are
       addressed.
   •   To meet CMMI-Development maturity level 3 requirements, the Process and Product
       Quality Assurance organization must ensure processes are well characterized and
       understood, and are described in standards, procedures, tools, and methods. These
       standard processes are used to establish consistency across the organization. The CMMI
       defines an organization as an administrative structure in which people collectively
       manage one or more projects as a whole and whose projects share a senior manager and
       operate under the same policies.
Currently, the Applications Development function is the only activity in the MITS organization
with a Quality Assurance Program Office. Although the Quality Assurance Program Office is

                                                                                             Page 5
                    The Applications Development Function’s Quality Assurance
                      Program Office Can Make Its Processes More Effective



assigned to and reports to the Applications Development function, the scope of its audits
involves other components of the MITS organization. For example, the Quality Assurance
Program Office has made assessments of configuration management and requirements
management which are in the Enterprise Services function’s responsibilities.
For the MITS organization to reach its goal of achieving CMMI-Development maturity level 3,
the scope of the Quality Assurance Program Office must ensure processes are well characterized,
understood, and described in standards, procedures, tools, and methods. These standard
processes should be used to establish consistency across the MITS organization. Implementing
this scope would involve organizational changes for a Quality Assurance Program Office to have
MITS-wide assessment and reporting responsibilities. This scope of responsibility would benefit
the MITS organization by enabling it to achieve consistency across the organization. In addition,
a MITS-wide Quality Assurance Program Office would prevent duplication of effort and extra
costs if other MITS organization components begin implementing Quality Assurance Program
Offices.

Recommendation
Recommendation 1: As the Quality Assurance Program Office processes mature, the Chief
Technology Officer should consider establishing a separate quality assurance group to provide
coverage across the MITS organization. Once the development processes throughout the
organization have matured and CMMI maturity level 3 is within sight, the MITS organization
should realign the quality assurance group to report to the Office of the Chief Technology
Officer.
          Management’s Response: The IRS agreed with our recommendation. The Chief
          Technology Officer plans to evaluate the feasibility and timing of this recommendation,
          in consideration of a variety of Information Technology factors, as the achievement of
          CMMI maturity level 3 is within sight.

The Quality Assurance Program Office Should Ensure All Products
Include an Approval Signature
The Government Accountability Office’s Standards for Internal Control in the Federal
Government2 provide that internal control activities help ensure that management’s directives are
carried out. Control activities are the policies, procedures, techniques, and mechanisms that
enforce management’s directives. Control activities occur at all levels and functions of the
entity. They include a wide range of diverse activities such as approvals, authorizations,
verifications, and the creation and maintenance of related records which provide evidence of
execution of these activities as well as appropriate documentation.

2
    GAO/AIMD-00-21.3.1, November 1999.
                                                                                            Page 6
                    The Applications Development Function’s Quality Assurance
                      Program Office Can Make Its Processes More Effective



The Quality Assurance Program Office develops products and documents to provide direction
for its program and to summarize results of its efforts. The products and documents include the
annual audit plans, program guidance documents, audit reports, and Domain Director and
Program Management Office Director Reports. The Quality Assurance Program Office created
directives and templates to help ensure these documents meet the needs of the program.
The products and documents created generally met the office guidelines. However, the
guidelines do not require approval signatures and dates on the products by the Quality Assurance
Program Office Director, the Program Management Office Director, or the Assistant Chief
Information Officer for the Applications Development function. Dated signatures by the
appropriate levels of management provide assurance that the products and guidance documents
issued or implemented were properly reviewed and approved.

Recommendation
Recommendation 2: The Chief Technology Officer should require the Applications
Development function to implement procedures to officially approve the Quality Assurance
Program Office products and guidance documents including, but not limited to, the annual audit
plans, program guidance documents, audit reports, and Domain Director and Program
Management Office Director Reports.
        Management’s Response: The IRS agreed with our recommendation. The
        Applications Development function’s Quality Assurance Program Office plans to modify
        its reporting procedures and templates to include approvals related to its products and
        guidance documentation.

The Quality Assurance Program Office Audit Documentation and
Procedures Need Improvement
To assess the effectiveness of the Quality Assurance Program Office’s evaluations of projects
and processes, we reviewed a judgmental sample of 29 Quality Assurance Program Office audits
conducted in Fiscal Years 2008 and 20093 to determine whether the results reported by the
Quality Assurance Program Office were supported by adequate documentary evidence.

Documentary evidence to assess and support the reported audit results was not
effectively maintained
Although the Quality Assurance Program Office audit reports provide valuable feedback to the
Applications Development function, the issues reported were not always supported with


3
  Appendix IV presents a summary of the Treasury Inspector General for Tax Administration (TIGTA) review
results for the 29 Quality Assurance Program Office audits sampled.
                                                                                                      Page 7
                  The Applications Development Function’s Quality Assurance
                    Program Office Can Make Its Processes More Effective



sufficient, relevant, and accessible evidence. The Quality Assurance Program Office uses an IRS
electronic network repository to maintain electronic files documenting the audit evidence. The
Applications Development function’s Quality Assurance Program Office Document
Management Procedure, dated March 30, 2007, provides instructions for audit evidence (audit
notifications, evaluation checklists, presentations, audit reports, and corrective action plans) to be
filed within the Quality Assurance Program Office electronic network repository.
We were informed that the required documentation missing from the repository was sometimes
maintained on the personal computers of the quality specialists who performed the audits. In
addition, some audits were performed by contractor personnel who did not have access to the
electronic repository. This documentation was maintained in a separate hardcopy file and was
not always scanned for inclusion in the electronic network repository. In our review of 29 audits,
we identified:
   •   19 audits that did not have all the supporting documentation filed in the Quality
       Assurance Program Office repository; however, the documents were provided from the
       quality specialists’ personal computer files.
   •   11 audits that were missing the Preliminary Audit Plan Notice and/or Opening
       Presentation documentation.
   •   4 audits that were missing the Audit Evaluation Checklist.
   •   3 audits that were missing the Corrective Action Plan.
Adequate maintenance of audit evidence in a centralized and accessible location will allow the
Quality Assurance Program Office to effectively provide the necessary documentation to support
the audit results reported.

Procedures to ensure the audit evidence was complete were not adequate or
always followed
The audit files did not always clearly support the findings reported or ensure resolution of the
noncompliance issues. In our review of the 29 audits, we found the following procedural issues.
The Audit Evaluation Checklist issues did not include references to the reports’ noncompliance
issues or reasons for not including the issues identified on the Audit Evaluation Checklist as
report findings. The absence of cross references to and from the audit documentation and the
report prevents a reviewer from making an adequate assessment of the accuracy of the audit
report. For example:
   •   18 Audit Evaluation Checklists did not include explanations for noncompliant and/or
       partially compliant issues and could not be easily referenced to noncompliance issues
       presented in the audit report.


                                                                                              Page 8
                  The Applications Development Function’s Quality Assurance
                    Program Office Can Make Its Processes More Effective



   •   3 audits had inconsistent results reported between the checklist, audit report, and/or
       Program Management Office Director Reports.
The Quality Assurance Program Office includes program reviews as part of its audit coverage.
Program review audits were initiated because the Applications Development function’s domains
reorganized their investment portfolios and aligned related projects in the same program. The
program review includes audits of related projects within a specific program. The results of
these audits are summarized and presented as one report for the entire program.
Our sample review of 29 audits included 3 program reviews. The official database for Quality
Assurance Program Office audits did not include results for the program reviews or the reviews
of the projects associated with the programs. Without detailed program review results, the
database does not provide a complete picture of the audit activities. Although noncompliance
issues from the program reviews are not included in the aging reports for follow up by the
Quality Assurance Program Office, according to the Chief, Quality Assurance Program Office,
these issues are monitored separately by the quality specialists.
The Quality Assurance Program Office reports noncompliance issues identified during an audit.
The project team is required to prepare a Corrective Action Plan detailing when each reported
issue will be resolved. The Quality Assurance Program Office monitors the resolution of the
reported noncompliance issues to ensure the Applications Development function’s domains
timely implement their corrective actions as documented in their plans and then update the
database regarding the status of the resolution of the noncompliance issues. If a noncompliance
issue is not timely resolved, it is escalated through the management chain for resolution.
We reviewed the status of the Corrective Action Plans prepared by the project teams to resolve
the reported noncompliance issues and determined if the issues were monitored and resolved
timely. Our review found:
   •   16 audits did not provide explanations for overdue noncompliance issues, and the issues
       were not escalated to ensure resolution.
   •   8 audits with inaccurate database date entries for audit closing, audit report issue, planned
       resolution, and/or noncompliance issue closed dates.
Adequate procedures to provide guidance on maintaining complete and accurate audit evidence
will help ensure the Quality Assurance Program Office has sufficient support for its reports. In
addition, taking adequate action to follow up on noncompliant project issues will allow the
Applications Development function the opportunity to achieve product and service
improvements.

The peer review process was not complete or adequately documented
The peer review provides a control to help assure findings and conclusions in audit reports are
fully supported by sufficient, competent, and relevant evidence. The Quality Assurance Program

                                                                                             Page 9
                  The Applications Development Function’s Quality Assurance
                    Program Office Can Make Its Processes More Effective



Office developed peer review guidance to help facilitate a thorough and consistent peer review
process. Although the Quality Assurance Program Office initiated peer review activities, the
process was not always thorough.
We analyzed the samples of 29 audit reports, 10 Domain Director Reports, and the Fiscal
Years 2008 and 2009 annual Program Management Office Director Reports, to determine
whether the reports were subjected to a peer review before issuance. We reviewed the completed
peer review comments to note any issues identified and whether all significant issues were
resolved before report issuance. Our review found:
   •   The Quality Assurance Program Office repository did not include peer review
       documentation for any of the Quality Assurance Program Office’s audit reports, Domain
       Director Reports, and Program Management Office Director Reports.
   •   After we requested the missing documentation, we received peer review documentation
       for only 5 of the 29 audit reports, 3 of the 10 Domain Director Reports, and 1 of the 2
       Program Management Office Director Reports.
   •   The peer review documentation focused primarily on the report presentation
       (format/punctuation/grammar) rather than determining whether the report issues were
       supported with adequate documentary evidence.
   •   There was no clear indication that the quality specialists addressed the peer review
       comments prior to the issuance of the audit report.
   •   The peer reviews did not address Audit Evaluation Checklist items that were inaccurately
       presented or missing from the audit reports.
By ensuring an adequate peer review, the Quality Assurance Program Office audit, Domain
Director, and Program Management Office Director Reports will have greater assurance of being
informative, accurate, and appropriate in perspective.

Recommendations
Recommendation 3: The Chief Technology Officer should ensure the Quality Assurance
Program Office guidance includes requirements that: 1) quality specialists support all findings
included in reports with available references to the documentation to support the report issues,
2) all noncompliance issues are adequately monitored to resolution, and 3) the database
repository for Quality Assurance Program Office audits includes all audit results and corrective
action dates.
       Management’s Response: The IRS agreed with our recommendation. The Quality
       Assurance Program Office plans to strengthen the language relative to the reporting of
       the audit findings to include a mapping of the checklists to the findings and the
       monitoring of noncompliances. To the extent possible, the Quality Assurance Program
                                                                                          Page 10
                 The Applications Development Function’s Quality Assurance
                   Program Office Can Make Its Processes More Effective



       Office plans to ensure that the audit’s results are input into the database. The IRS noted
       that the database currently does not have the ability to capture program data. The Quality
       Assurance Program Office plans to explore the acquisition of a more robust tool to
       alleviate the issues described in item number three of this recommendation.
Recommendation 4: The Chief Technology Officer should have the Quality Assurance
Program Office further develop the peer review guidance to ensure audit reports are supported by
sufficient, competent, and relevant evidence. To help facilitate an adequate peer review, the
Quality Assurance Program Office should analyze the peer review checklist to ensure it includes
all appropriate issues for review and require its use in performing peer reviews.
       Management’s Response: The IRS agreed with our recommendation. The Quality
       Assurance Program Office plans to strengthen the language relative to the peer review
       process and analyze the checklist to ensure it includes all appropriate issues for review.




                                                                                          Page 11
                 The Applications Development Function’s Quality Assurance
                   Program Office Can Make Its Processes More Effective



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the Applications Development function’s
Quality Assurance Program Office ensures development projects implement a coordinated set of
activities that conform to organizational policies, processes, and procedures that meet the
standards of the Software Engineering Institute’s CMMI - Development maturity level 2.
We assessed the adequacy of program documentation and data provided by the IRS. We
supported this work by interviewing Quality Assurance Program Office personnel. Specifically,
we:
I.     Determined whether the Applications Development function’s Quality Assurance
       Program Office had effective program management processes to objectively identify and
       evaluate projects and their related development work processes.
       A. Reviewed the current organizational structure of the Quality Assurance Program
          Office to determine if it is effective to provide independent evaluations of the
          Applications Development function processes and projects.
       B. Determined whether the Quality Assurance Program Office’s audit selection criteria
          and annual audit plan provide adequate review coverage to meet the goals and
          objectives for performing evaluations of the investment portfolio.
       C. Determined whether the Quality Assurance Program Office specialists have adequate
          qualifications to perform the audits in compliance with the CMMI.
       D. To obtain a general assessment of the adequacy of the Quality Assurance Program
          Office audit activities, we selected a sample of Quality Assurance Program Office
          Domain Director Reports to determine whether the audits performed were fairly
          presented. Our review included a judgmentally selected sample of 10 of the 55
          Domain Director Reports that were issued in Fiscal Years 2008 and 2009. Also, we
          reviewed the Fiscal Years 2008 and 2009 annual Program Management Office
          Director Reports. We determined whether the audits performed were fairly presented
          in the reports and if peer reviews were conducted for the sample of Domain Director
          Reports and the annual Program Management Office Director Reports. We used a
          judgmental sample because we did not intend to project the results of this sample to
          the population.




                                                                                       Page 12
                 The Applications Development Function’s Quality Assurance
                   Program Office Can Make Its Processes More Effective



II.    Determined whether the Quality Assurance Program Office has an effective process to
       perform the responsibilities as required by the CMMI.
       A. Reviewed the processes, guidance, and procedures implemented by the Quality
          Assurance Program Office and determined whether they meet the requirements of the
          CMMI-Development.
       B. Determined whether the audit reports, Domain Director Reports, and the annual
          Program Management Office Director Reports used to convey the results of the
          evaluations of the processes and projects meet the requirements of the CMMI-
          Development.
III.   Determined whether the project and process evaluations effectively identified and
       reported noncompliance with processes and procedures and whether adequate corrective
       actions were taken.
       A. To obtain a general assessment of the adequacy of the Quality Assurance Program
          Office audit activities, we selected a judgmental sample of Quality Assurance
          Program Office audit files to determine whether the Quality Assurance Program
          Office quality specialists obtained and documented adequate evidence to support the
          observations reported. Our review included a judgmentally selected sample of
          20 percent of the Quality Assurance Program Office audits conducted in Fiscal
          Years 2008 and 2009. The sample of 29 audits included 13 of the 65 audits
          completed in Fiscal Year 2008 and 16 of the 79 audits completed in Fiscal Year 2009.
          We used a judgmental sample because we did not intend to project the results of this
          sample to the population.
       B. Determined whether each audit report was subjected to the Quality Assurance
          Program Office’s own peer review before issuance.
       C. Determined whether all the noncompliance issues identified in the reports were or are
          being monitored.
       D. Determined if any audit reports issued with noncompliance issues were disagreed by
          the auditee and whether the escalation procedures were followed to resolve the
          disagreements.




                                                                                        Page 13
                 The Applications Development Function’s Quality Assurance
                   Program Office Can Make Its Processes More Effective



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CMMI-Development, the Enterprise Life
Cycle, and the Internal Revenue Manual. We supported this work by interviewing Applications
Development function executives and the Chief, Quality Assurance Program Office, and staff.




                                                                                      Page 14
                 The Applications Development Function’s Quality Assurance
                   Program Office Can Make Its Processes More Effective



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Michael A. Garcia, Senior Auditor
Beverly K. Tamanaha, Senior Auditor
Tina Wong, Senior Auditor
Louis V. Zullo, Senior Auditor
Tuyet Nguyen, Auditor




                                                                                     Page 15
                The Applications Development Function’s Quality Assurance
                  Program Office Can Make Its Processes More Effective



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Modernization Program Management Office OS:CTO:MP
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Deputy Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Enterprise Systems Testing OS:CTO:AD:TAD
Director, Risk Management OS:CTO:SP:RM
Director, Strategy and Capital Planning OS:CTO:SP:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Associate Chief Information Officer, Enterprise Services OS:CTO:ES
       Director, Risk Management OS:CTO:SP:RM




                                                                               Page 16
                   The Applications Development Function’s Quality Assurance
                     Program Office Can Make Its Processes More Effective



                                                                                               Appendix IV

 Quality Assurance Program Office Audits Reviewed

The following tables present the results of our review of 29 Quality Assurance Program Office
audits from Fiscal Years 2008 and 2009. The review results presented below include the issues
we identified relating to deficiencies in capturing adequate documentation to support audit
results and appropriate application of procedural guidance in performing the audits.
                                  Table 1: Fiscal Year 2008 Audits

               Quality                      TIGTA                                    TIGTA
           Assurance Audit             Documentation Issue                       Procedural Issue
     1.   Correspondence           No peer review documentation.          No explanation for partially
          Examination                                                     compliant issues – unable to track
          Automated System                                                these checklist issues to the
          Major Windows-Intel                                             reported noncompliance issues.
          (Intel-based Windows
          computer system)
     2.   Automated                Peer review documentation not on       No explanation for overdue
          Underreporter Program    electronic network repository;         noncompliance issues and not
                                   provided upon request.                 escalated.


     3.   Automated Insolvency     Peer review documentation not on       1) No explanation for overdue
          System                   electronic network repository;         noncompliance issues and not
                                   provided upon request.                 escalated.
                                                                          2) No explanation for partially
                                                                          compliant issues – unable to track
                                                                          these checklist issues to the
                                                                          reported noncompliance issues.
     4.   Business Master File     1) No audit notification               1) No explanation for overdue
          Research and Support     documentation.                         noncompliance issues and not
          – Federal                2) No peer review documentation.       escalated.
          Unemployment Tax         3) Opening presentation, audit         2) Incorrect dates on database.
          Act                      evaluation checklist, corrective       3) No explanation for partially
                                   action plan, and audit report not on   compliant issues – unable to track
                                   electronic network repository;         these checklist issues to the
                                   provided upon request.                 reported noncompliance issues.




                                                                                                         Page 17
                The Applications Development Function’s Quality Assurance
                  Program Office Can Make Its Processes More Effective




           Quality                       TIGTA                                  TIGTA
       Assurance Audit              Documentation Issue                     Procedural Issue
 5.   Notice Print Processing   1) Audit notification and open      1) No explanation for overdue
      – Individual Taxpayer     presentation not on electronic      noncompliance issues and not
      Identification Number     network repository; provided upon   escalated.
                                request.                            2) No explanation for
                                2) No peer review documentation.    noncompliant issues – unable to
                                3) Corrective action plan           track these checklist issues to the
                                incomplete.                         reported noncompliance issues.
 6.   Enterprise Return         1) No audit notification            None.
      Retrieval                 documentation.
                                2) No peer review documentation.
 7.   Accounts Management       1) Audit notification not on        No explanation for overdue
      Services Project          electronic network repository;      noncompliance issues and not
      Release 1.3               provided upon request.              escalated.
                                2) No peer review documentation.
                                3) Corrective action plan
                                incomplete.
 8.   Web Integration,          1) No audit notification and open   No explanation for overdue
      Collaboration and         presentation documentation.         noncompliance issues and not
      Development               2) No peer review documentation.    escalated.
                                3) No audit evaluation checklist.
 9.   Web Integration,          1) No audit notification and open   No explanation for overdue
      Collaboration and         presentation documentation.         noncompliance issues and not
      Development               2) No peer review documentation.    escalated.
                                3) No audit evaluation checklist.
10.   Embedded Quality          1) Audit notification not on        1) Incorrect dates on database.
                                electronic network repository;      2) Noncompliance issues closed
                                provided upon request.              even though not resolved because
                                2) No opening presentation          followup audit being conducted.
                                documentation.
                                3) No peer review documentation.
                                4) No audit evaluation checklist.




                                                                                                     Page 18
                The Applications Development Function’s Quality Assurance
                  Program Office Can Make Its Processes More Effective




           Quality                    TIGTA                                  TIGTA
       Assurance Audit           Documentation Issue                     Procedural Issue
11.   Security Audit and     1) Audit notification, audit         1) No explanation for partially
      Analysis System        evaluation checklists, and           compliant and noncompliance
                             corrective action plan not on        issues – unable to track these
                             electronic network repository;       checklist issues to the reported
                             provided upon request.               noncompliance issues.
                             2) No peer review documentation.     2) Incorrect dates on database.
                                                                  3) No explanation for overdue
                                                                  noncompliance issues and not
                                                                  escalated.
                                                                  4) Inconsistent results reported
                                                                  between checklist, audit report,
                                                                  and/or Program Management
                                                                  Office Director Report.
12.   Totally Automated      1) Audit notification and audit      1) Incorrect dates on database.
      Personnel System       evaluation checklists not on         2) No explanation for partially
      Program Operations     electronic network repository;       compliant and noncompliance
      and Maintenance        provided upon request.               issues – unable to track these
                             2) No peer review documentation.     checklist issues to the reported
                                                                  noncompliance issues.
                                                                  3) No explanation for overdue
                                                                  noncompliance issues and not
                                                                  escalated.
                                                                  4) Inconsistent results reported
                                                                  between checklist, audit report,
                                                                  and/or Program Management
                                                                  Office Director Report.
13.   Business Master File   Audit notification and peer review   1) No explanation for partially
      Electronic Filing      documentation not on electronic      compliant and noncompliance
                             network repository; provided upon    issues – unable to track these
                             request.                             checklist issues to the reported
                                                                  noncompliance issues.
                                                                  2) Incorrect dates on database.




                                                                                                     Page 19
               The Applications Development Function’s Quality Assurance
                 Program Office Can Make Its Processes More Effective



                             Table 2: Fiscal Year 2009 Audits

          Quality                     TIGTA                                    TIGTA
      Assurance Audit            Documentation Issue                       Procedural Issue
1.   Return Inventory         Audit evaluation checklist with       No explanation for overdue
     Classification System    comments and peer review              noncompliance issues and not
                              documentation not on electronic       escalated.
                              network repository; received
                              upon request.
2.   Examination Returns      1) Audit evaluation checklist with    No explanation for overdue
     Control System           comments not on electronic            noncompliance issues and not
                              network repository; received          escalated.
                              upon request.
                              2) No peer review
                              documentation.
3.   Issue Based              1) Opening presentation, audit        1) No explanation for partially
     Management               evaluation checklist, audit report,   compliant and noncompliance issues
     Information System       and corrective action plan not on     – unable to track these checklist
                              electronic network repository;        issues to the reported noncompliance
                              provided upon request.                issues.
                              2) No peer review                     2) No explanation for overdue
                              documentation.                        noncompliance issues and not
                                                                    escalated.
                                                                    3) Inconsistent results reported
                                                                    between checklist, audit report,
                                                                    and/or Program Management Office
                                                                    Director Report.
4.   Appeals Centralized      Peer review documentation and         No explanation for overdue
     Database System          corrective action plan not on         noncompliance issues and not
                              electronic network repository;        escalated.
                              provided upon request.
5.   Inventory Delivery       1) Opening presentation, audit        No explanation for overdue
     System                   evaluation checklist, and audit       noncompliance issues and not
                              report not on electronic network      escalated.
                              repository; provided upon
                              request.
                              2) Corrective action plan
                              incomplete.
                              3) No peer review
                              documentation.




                                                                                                    Page 20
                   The Applications Development Function’s Quality Assurance
                     Program Office Can Make Its Processes More Effective




           Quality                     TIGTA                                   TIGTA
       Assurance Audit            Documentation Issue                      Procedural Issue
 6.   Notice Conversion        1) No audit notification            1) No explanation for noncompliant
                               documentation.                      issues – unable to track these
                               2) No peer review                   checklist issues to the reported
                               documentation.                      noncompliance issues.
                                                                   2) Incorrect dates on database.
 7.   Individual Master File   1) No audit notification            1) No explanation for partially
      Online                   documentation.                      compliant issues – unable to track
                               2) No peer review                   these checklist issues to the reported
                               documentation.                      noncompliance issues.
                               3) Open presentation, audit         2) Program Review – No audit
                               evaluation checklist, and           information included on the Quality
                               corrective action plan not on       Assurance Program Office database.
                               electronic network repository;      3) No explanation for overdue
                               provided upon request.              noncompliance issues and not
                                                                   escalated.
 8.   e-Services               1) Audit notification not on        1) No explanation for partially
                               electronic network repository;      compliant issues – unable to track
                               provided upon request.              these checklist issues to the reported
                               2) No peer review                   noncompliance issues.
                               documentation.                      2) Program Review – No audit
                                                                   information included on the Quality
                                                                   Assurance Program Office database.
 9.   Account Management       1) Audit notification not on        Program Review – No audit
      Services Operations      electronic network repository;      information included on the Quality
      and Maintenance          provided upon request.              Assurance Program Office database.
      Sub-Projects: Field      2) No audit evaluation checklist.
      Assistance Self Assist   3) No peer review
      Model                    documentation.
10.   Automated Labor and      1) No audit notification            1) No explanation for partially
      Employee Relations       documentation.                      compliant and noncompliance issues
      Tracking System          2) No peer review                   – unable to track these checklist
                               documentation.                      issues to the reported noncompliance
                                                                   issues.
                                                                   2) No explanation for overdue
                                                                   noncompliance issues and not
                                                                   escalated.
                                                                   3) Incorrect dates on database.
11.   GovTrip                  1) No audit notification and open   No explanation for partially
                               presentation documentation.         compliant issues – unable to track
                               2) No peer review                   these checklist issues to the reported
                               documentation.                      noncompliance issues.


                                                                                                     Page 21
                The Applications Development Function’s Quality Assurance
                  Program Office Can Make Its Processes More Effective




           Quality                     TIGTA                               TIGTA
       Assurance Audit            Documentation Issue                  Procedural Issue
12.   Unpaid Assessments       1) Audit notification not on     1) No explanation for partially
                               electronic network repository;   compliant and noncompliance issues
                               provided upon request.           – unable to track these checklist
                               2) No peer review                issues to the reported noncompliance
                               documentation.                   issues.
                                                                2) Noncompliance issues closed
                                                                even though not resolved because a
                                                                followup audit being conducted.
13.   Custodial Detail         1) Audit notification not on     1) No explanation for partially
      Database                 electronic network repository;   compliant and noncompliance issues
                               provided upon request.           – unable to track these checklist
                               2) No peer review                issues to the reported noncompliance
                               documentation.                   issues.
                                                                2) Noncompliance issues closed
                                                                even though not resolved because
                                                                followup audit being conducted.
14.   Embedded Quality         No peer review documentation.    No explanation for partially
                                                                compliant and noncompliance issues
                                                                – unable to track these checklist
                                                                issues to the reported noncompliance
                                                                issues.
15.   Individual Master File   1) No audit notification         1) No explanation for partially
      Document Specific        documentation.                   compliant and noncompliance issues
                               2) No peer review                – unable to track these checklist
                               documentation.                   issues to the reported noncompliance
                                                                issues.
                                                                2) Incorrect dates on database.
16.   Modernized e-File        1) No audit notification         No explanation for partially
      Operations and           documentation.                   compliant and noncompliance issues
      Maintenance              2) No peer review                – unable to track these checklist
                               documentation.                   issues to the reported noncompliance
                                                                issues.




                                                                                                Page 22
                 The Applications Development Function’s Quality Assurance
                   Program Office Can Make Its Processes More Effective



                                                                                Appendix V

                                 Glossary of Terms

             Term                                          Definition
Best Practice                    A technique or methodology that, through experience and
                                 research, has proven to reliably lead to a desired result.
Capability Maturity Model        A model or collection of “best practices” that organizations
Integration - Development®       follow to dramatically improve the effectiveness, efficiency,
                                 and quality of their product and service development work.
                                 CMMI-Development is also supported by training courses and
                                 appraisal methodologies to help organizations objectively
                                 measure their improvement progress.
Enterprise Life Cycle            A structured business systems development method that
                                 requires the preparation of specific work products during
                                 different phases of the development process.
Release                          A specific edition of software.
Software Engineering Institute   A Federally funded research and development center whose
                                 purpose is to help others make measured improvements in
                                 their software engineering capabilities.
Task Order                       An order for services planned against an established contract.




                                                                                         Page 23
    The Applications Development Function’s Quality Assurance
      Program Office Can Make Its Processes More Effective



                                                   Appendix VI

Management’s Response to the Draft Report




                                                         Page 24
The Applications Development Function’s Quality Assurance
  Program Office Can Make Its Processes More Effective




                                                     Page 25
The Applications Development Function’s Quality Assurance
  Program Office Can Make Its Processes More Effective




                                                     Page 26
